ScotiaLine Gold
(Sin Garantía)

ScotiaLine Gold integra el uso de la tarjeta de crédito ScotiaLine Gold MasterCard® de Scotiabank de Puerto Rico con una línea de crédito.
1)

Definiciones — Las siguientes palabras, cuando se usen en este contrato con letra mayúscula inicial, tendrán los significados que se establecen a
continuación:
a)

“Usted” significa la persona que solicita o acepta este contrato;

b)

“Persona Autorizada” significa cualquier persona a quien Usted autorice acceder a su cuenta ScotiaLine Gold, según se establece más adelante
en la sección 5);

c)

“Nosotros” significa Scotiabank de Puerto Rico;

d)

“Línea de Crédito” significa el dinero que Usted y las Personas Autorizadas podrán acceder mediante el uso de Cheques y Tarjetas;

e)

“Cheque” significa los instrumentos que proveeremos para que Usted y las Personas Autorizadas accedan su cuenta ScotiaLine Gold;

f)

“Tarjeta” significa una o más tarjetas de crédito ScotiaLine Gold MasterCard que proveeremos para que Usted y las Personas Autorizadas
accedan su cuenta Scotiabank Gold;

g)

“ScotiaLine Gold” significa el producto objeto de este contrato, que combina la Línea de Crédito y la Tarjeta; y

h)

“Balance Vencido” significa cualquier balance cuyo pago haya sido requerido en un estado de cuenta anterior y no haya sido pagado.

2)

Contrato — Su cuenta ScotiaLine Gold se regirá por los términos, cláusulas y condiciones que se establecen en este contrato, según sea éste
enmendado de tiempo en tiempo. El que Usted utilice cualquier servicio de ScotiaLine Gold equivaldrá a Usted aceptar este contrato.

3)

Cancelación del contrato
a)

Cancelación por Usted. Usted tendrá derecho a cancelar este contrato si así nos lo notifica por escrito dentro de 15 días de su recibo, si
todavía ni Usted ni una Persona Autorizada han utilizado un servicio de ScotiaLine Gold, y Usted nos devuelve todos los Cheques y las Tarjetas
partidas por la mitad. Posteriormente Usted podrá cancelar este contrato en cualquier momento si:
i)

nos notifica la cancelación por escrito enviándola a la dirección detallada en el párrafo 29)b) de este acuerdo.

ii)

ni Usted ni ninguna Persona Autorizada vuelve a usar un servicio de ScotiaLine Gold, y

iii)

Usted nos devuelve todos los Cheques y las Tarjetas partidas por la mitad.

Después de la cancelación, Usted podrá seguir pagando el balance que nos adeude, conforme a los términos de este contrato.
b)

Cancelación por Nosotros. Nosotros tendremos derecho a cancelar este contrato en cualquier momento si se lo notificamos por escrito. En ese
caso ni Usted ni ninguna Persona Autorizada podrá seguir usando los servicios de ScotiaLine Gold, y Usted vendrá obligado a devolvernos
todos los Cheques y Tarjetas partidas por la mitad.

Después de la cancelación, Usted podrá seguir pagando el balance que nos adeude, conforme a los términos de este contrato, a menos que la
cancelación conlleve el pago inmediato de la totalidad del balance adeudado, según se establece más adelante en la sección 27).
4)

Uso de ScotiaLine Gold
a)

Usted y las Personas Autorizadas podrán usar ScotiaLine Gold solamente para fines personales y familiares, pero no para propósitos de
negocios.

b)

La Línea de Crédito será de naturaleza rotativa; o sea, que se podrán volver a tomar prestadas las sumas que pague, hasta el límite de crédito
que establezcamos a tenor con la sección 8).

Página 1 de 7

ScotiaLine Gold – Sin garantía
Contrato Rev. 9-19

c)

Usted y las Personas Autorizadas podrán usar los Cheques y la Tarjeta para acceder la Línea de Crédito, y de esa forma: (i) adquirir mercancía y
servicios de aquellos comerciantes que acepten los Cheques o la Tarjeta (a quienes Usted y las Personas Autorizadas nos autorizan pagar el
importe correspondiente), y (ii) para recibir de Nosotros adelantos de efectivo.

No podremos certificar Cheques.
5)

Personas Autorizadas — Usted podrá designar Personas Autorizadas con facultad para utilizar los servicios de su cuenta ScotiaLine Gold.

6)

Obligación de pagar — Usted nos adeudará las sumas cargadas a su cuenta ScotiaLine Gold por (i) compras de mercancía o servicios, (ii) adelantos
de efectivo, (iii) Cargos por Financiamiento y (iv) otros cargos aplicables, todo en moneda del curso legal de los Estados Unidos de América, y
vendrán obligados a pagarnos las mismas cuando reciban el estado de cuenta objeto de la sección 15).

7)

Garantía — La colateral garantiza el fiel cumplimiento por parte de Usted de todas las deudas y otras obligaciones bajo este contrato. Podremos
conceder prórrogas, tomar y aceptar garantías adicionales o sustitutas, aceptar transacciones y arreglos, conceder relevos y descargos, y negociar
en cualquier otra forma en que creamos aconsejable con relación a la Garantía, sin que tales actuaciones perjudiquen nuestros derechos contra
Usted. Nosotros no estaremos obligados a ejecutar la Garantía, o de otra forma agotar nuestros remedios respecto a ella, antes de cobrar la deuda
y otras obligaciones incurridas bajo este contrato por Usted. Por el contrario, Nosotros podemos optar por utilizar cualquier remedio que
tengamos a nuestro alcance para cobrar dichas deudas y hacer cumplir dichas obligaciones, sin perjuicio de luego poder proceder contra la
garantía.

8)

Límite de crédito —
a)

b)

c)

9)

En la parte inferior de la página seis (6) de este contrato se indica el límite de crédito que hemos aprobado para su cuenta ScotiaLine Gold. El
total que Usted nos adeude no podrá exceder del límite de crédito aprobado. Tendremos derecho (a nuestra opción) a hacer lo siguiente en
caso que se exceda el límite de crédito:
i)

Cancelar este contrato y requerirle a Usted el pago inmediato de cualquier cantidad en exceso del limite, o

ii)

exigir de Usted el pago inmediato toda suma que nos adeuden en exceso del límite de crédito, sin que esto les dé derecho a excederse de
dicho límite en el futuro; o

iii)

no exigirles pago del exceso, sin que esto les dé derecho a excederse de dicho límite en el futuro.

Podremos reducir su límite de crédito, y podremos también suspender provisionalmente el acceso a su cuenta ScotiaLine Gold, en cualquiera
de los siguientes casos:
i) si razonablemente creemos que Usted no podrá cumplir con sus obligaciones de pago a tenor con este contrato debido a un cambio
material en su situación económica;
ii)

si Usted incumple con una obligación sustancial de este contrato;

iii)

si una actuación de una agencia de gobierno nos prohíbe imponerle la Tasa de Porcentaje Anual que se establece en este contrato;

iv)

si una de nuestras agencias reguladoras nos notifica que continuar concediendo crédito bajo este contrato constituye una práctica
peligrosa e insegura.

El Banco no será responsable si una compra o adelanto en efectivo no es aprobado por el Banco o un tercero, aun en el caso de que usted
tenga crédito disponible. El Banco puede limitar el número de compras o adelantos de efectivo aprobados durante un día. Si el Banco detecta
actividad poco usual en su cuenta, podrá suspender temporalmente su crédito hasta tanto se verifique la legitimidad de la transacción.

Devolución de Tarjetas y Cheques — Los Cheques y las Tarjetas son propiedad del Banco, y podremos en cualquier momento exigir su devolución
en caso que Usted o Nosotros decidamos cancelar este contrato, o en caso que Nosotros decidamos sustituirlas por otras. En esos casos Usted se
obliga a devolvernos los Cheques y las Tarjetas partidas por la mitad.

10) Cargo por Financiamiento — Su cuenta ScotiaLine Gold devengará un Cargo por Financiamiento. Determinaremos el Cargo por Financiamiento
multiplicando el “Balance Promedio Diario” pendiente de pago durante el período de facturación que establezcamos a tenor con la sección 15) por
la Tasa Periódica. La Tasa Periódica Inicial y su Tasa de Porcentaje Anual correspondiente están divulgadas en la Divulgación de Cargos y Cuotas
incluido como parte de este contrato. La Tasa Periódica y la Tasa de Porcentaje Anual correspondiente podrán fluctuar según se establece en la
sección 12).
11) Período de gracia
a)

Compras de mercancía y servicios. En el caso de compras de mercancía y servicios impondremos un Cargo por Financiamiento a partir de la
fecha en que paguemos al vendedor de la mercancía o proveedor del servicio. No existirá un periodo de gracia durante el cual Usted podrá
saldar el balance sin incurrir en un Cargo por Financiamiento.

Página 2 de 7

ScotiaLine Gold – Sin garantía
Contrato Rev. 9-19

b)

Adelantos de efectivo. En el caso de adelantos de efectivo impondremos un Cargo por Financiamiento a partir de la fecha en que Usted o una
Persona Autorizada reciba el adelanto en efectivo. No existirá un periodo de gracia durante el cual Usted podrá saldar el balance sin incurrir en
un Cargo por Financiamiento.

12) Intereses variables — La tasa de interés que utilizaremos para computar la Tasa Periódica y la Tasa de Porcentaje Anual correspondiente podrá
cambiar el primer día de cada período de facturación, y será efectiva para ese período de facturación siguiente. La tasa de interés aplicable será
igual al “Prime Rate” vigente el primer día del período de facturación, más el número de puntos porcentuales que se establece como margen en la
Divulgación de Cargos y Cuotas. “Prime Rate” será la tasa base para préstamos comerciales anunciada por no menos del 75% de los 30 bancos más
grandes en los Estados Unidos, según publicada en el periódico The Wall Street Journal bajo ese nombre (“Prime Rate”). En sus estados de cuenta
le informaremos la Tasa Periódica resultante y la Tasa de Porcentaje Anual correspondiente. La Tasa de Porcentaje Anual podrá cambiar cada mes.
La Tasa de Porcentaje Anual máxima que podrá alcanzar su cuenta es de 19% y la mínima es de 8%. No hay límite en la cantidad de veces que
pueda cambiar.
13) Tasa especial para solicitantes cubiertos por la Ley de Prestamos a Militares (MLA) - Aquel solicitante que al momento de solicitar para el producto
de crédito aplicable sea identificado como un militar activo o dependiente cubierto, según establecido por la Ley de Préstamos a Militares (MLA),
tendrá el beneficio de obtener una tasa de porcentaje anual (APR) especial de 6.00%. Esta tasa estará considerada como parte de la tasa de
porcentaje anual militar (MAPR), que según requerido por la Ley de Préstamos a Militares no excederá un 36.00% (MAPR). Esta tasa especial estará
vigente siempre y cuando el militar permanezca en el servicio activo. Una vez el militar culmine el servicio activo se le aplicara la tasa de interés
anual (APR) prevaleciente.
14) Balance Promedio Diario — Computaremos el Cargo por Financiamiento utilizando el método conocido como “Balance Promedio Diario”, el cual
obtendremos sumando los balances adeudados al final de cada día del período de facturación, y dividiendo el resultado entre el número de días
comprendidos en dicho período. Determinaremos los balances adeudados al final de cada día sumando: (i) el Balance Final del día anterior, (ii) las
compras de mercancía y servicios, y (iii) los adelantos de efectivo; y restando los pagos y otros créditos abonados durante el día. Efectuaremos la
suma y resta de estas partidas antes de computar el Cargo por Financiamiento.
15) Estado de cuenta — Dividiremos el año natural en 12 períodos de facturación de aproximadamente 30 días cada uno. Le enviaremos por correo un
estado de cuenta para cada período de facturación para el que Usted adeude un balance. En cada estado indicaremos, entre otras cosas: (i)
Balance Anterior, (ii) una identificación de pagos y créditos, débitos, compras de mercancía y servicios, y adelantos de efectivo efectuados durante
el período en cuestión, (iii) Cargo por Financiamiento, (iv) Tasa Periódica, (v) Tasa de Porcentaje Anual, (vi) balance sobre el cual se computó el
Cargo por Financiamiento, (vii) Balance Nuevo, (viii) Pago Mínimo, (ix) fecha en que vencerá el Pago Mínimo, (x) fecha de cierre del estado y (xi) sus
derechos de reclamación por errores en facturación.
16) Pago mínimo — Usted podrá pagar la cantidad total o una parte del nuevo balance que aparece en su estado de cuenta mensual, pero debe pagar
por lo menos el pago mínimo mensual, calculado como sigue: 2% del nuevo balance, más cualquier balance vencido y/o cantidad sobre el límite
aprobado, o $50, lo que sea mayor.
Bajo ciertas circunstancias los Pagos Mínimos pudieran no cubrir los cargos por financiamiento y pudiera ocurrir una amortización negativa, por lo
cual la cantidad adeudada puede aumentar.
17) Aplicación de pagos — El Banco acreditará el pago el mismo día en que sea recibido cuando éste se efectúe: (a) en efectivo o en cheque a través de
una de las sucursales del Banco, antes de la hora de cierre; (b) electrónicamente antes de las 5:00 p.m. de lunes a sábado; o (c) a través de correo
junto al talonario de pago a la dirección que aparece en el Estado de Cuenta del Cliente, siempre y cuando el pago sea recibido antes de las 5:00
p.m. de lunes a viernes.
18) Disponibilidad de crédito — Cuando el método de pago utilizado no sea en efectivo, el Banco aplazará la disponibilidad de los fondos equivalentes
al importe de pago, por un periodo de hasta cinco (5) días laborables. Esto significa que a pesar de que su pago va a ser acreditado, no va a tener
disponible ese balance hasta que haya transcurrido dicho periodo. Esto no conllevará cargos adicionales a su cuenta por concepto de cargos por
financiamiento.
19) Cargo por mora — Si no recibimos, por lo menos, el pago mínimo requerido en su estado de cuenta a la fecha de vencimiento de pago determinada
en su estado de cuenta, podremos imponer un cargo por mora de $25.00. Violaciones del mismo tipo, subsiguientes a la primera ofensa, dentro de
los siguientes seis meses estarán sujetas a un cargo por mora de hasta $30.00. Posterior al transcurso de estos seis meses, la próxima violación
estaría sujeta al cargo por mora de $25.00 y comenzará a trascurrir nuevamente un periodo de seis meses en el que se podrá imponer un cargo por
mora de hasta $30.00. Sólo impondremos el cargo por mora una vez por cada pago mínimo no pagado a tiempo.
20) Cargo por cheque devuelto — Por cada cheque que Usted nos entregue, que nos sea devuelto sin pagar, cargaremos a su cuenta ScotiaLine Gold el
cargo por cheque devuelto que se establece en la Divulgación de Cargos y Cuotas.
21) Un cargo por violación como resultado de un evento o transacción— No se impondrá más de un cargo por violación a los términos de su cuenta
como resultado de un evento o transacción. Por ejemplo, si efectúa un pago mediante cheque, el cual es devuelto y como consecuencia su pago
no es recibido antes de la fecha de vencimiento lo que resultaría en un cargo por mora, nosotros impondremos un cargo por mora, o un cargo por
cheque devuelto, pero no se cobrarán ambos, ya que los cargos son resultado del mismo evento o transacción.

Página 3 de 7

ScotiaLine Gold – Sin garantía
Contrato Rev. 9-19

22) Cargo por cambio de moneda — Por cada transacción efectuada en moneda extranjera, cargaremos un 1% de la cantidad de la transacción en USD,
adicional a cualquier otro cargo aplicable.
23) Cuotas anuales y Tarjetas adicionales
a)

Usted vendrá obligado a pagarnos la cuota anual que se establece en la Divulgación de Cargos y Cuotas. Esta cuota le dará derecho a que
emitamos una sola Tarjeta, que será a su nombre.

b)

Usted puede solicitar Tarjetas adicionales para uso por Personas Autorizadas, y en ese caso vendrá obligado a pagarnos la cuota anual
suplementaria que se establece en la Divulgación de Cargos y Cuotas (si aplica), por cada Tarjeta adicional emitida.

c)

Las cuotas anuales serán cargadas a su cuenta ScotiaLine Gold en el próximo estado de cuenta mensual, y sucesivamente en cada aniversario
de este contrato.

24) Otros cargos — Cualesquiera otros cargos que Usted será responsable de pagar según la Divulgación de Cargos y Cuotas aquí incluidos serán
detallados en su estado de cuenta.
25) Tarjetas extraviadas o hurtadas — Usted tendrá la obligación de notificarnos inmediatamente en caso de que una Tarjeta se extravíe, sea hurtada,
o sea usada sin su autorización, llamando por teléfono al número que aparece en su estado de cuenta, y completando y sometiendo aquellos
formularios e informes que le requiramos.
Usted podrá ser responsable por el uso no autorizado de cualquier Tarjeta. Usted no será responsable por uso no autorizado que ocurra después
de habernos notificado, verbalmente o por escrito, la pérdida, hurto o posible uso no autorizado de una Tarjeta. Su responsabilidad en cualquier
caso no excederá de $50.00.
26) Cheques
a)

Podremos rehusarnos pagar un Cheque después de seis meses de la fecha del mismo. El que paguemos uno o más Cheques después de haber
transcurrido dicho período no nos obligará a pagar otros Cheques presentados fuera del término.

b)

Usted podrá suspender el pago de un Cheque. No seremos responsables si pagamos un Cheque en cualquiera de los siguientes casos:
i)

si recibimos la orden de suspensión luego que el Cheque ha sido cargado a su cuenta;

ii)

si Usted no nos entrega la orden de suspensión por escrito, en el formulario que le suministremos para tal fin;

iii)

si la orden de suspensión no está firmada por la persona que firmó el Cheque;

iv)

si la persona que recibe el pago de hecho tiene derecho al mismo, o hubiese tenido derecho a recobrar de Usted si Nosotros no
hubiésemos pagado el Cheque;

v)

si Usted deja de ejercitar cualquier acción que pudiese tener para recobrar el dinero, ya sea contra la persona que recibe el pago o contra
cualquier otra persona;

vi)

si Usted está de otra forma impedido de colocar la orden de suspensión o de reclamar contra Nosotros.

c)

La duración de una orden de suspensión de pago será de seis meses a partir de la fecha del Cheque, a menos que Usted la hubiese cancelado
previamente por escrito, usando el formulario que suministremos para ese propósito.

d)

Por cada orden de suspensión de pago podremos efectuar el cargo que se establece en la Divulgación de Cargos y Cuotas, y cargarlo a su
cuenta ScotiaLine Gold.

e)

Si le devolvemos el importe de un Cheque que fue indebidamente pagado, adquiriremos todos sus derechos de cobrar de la persona que
recibió el pago, y de cualquier otra persona responsable.

27) Pago inmediato de la totalidad del balance adeudado — Podremos exigir el pago inmediato de toda suma que Usted nos adeude bajo este
contrato, en caso que Usted incumpla con sus obligaciones bajo el mismo.
28) Enmiendas a este contrato — Podremos enmendar los términos y condiciones de este contrato mediante aviso por escrito a Usted, antes de la
fecha de efectividad en que el cambio entre en vigor, según requerido por la regulación aplicable. Dicha enmienda aplicará al uso de ScotiaLine
Gold a partir de dicha fecha de vigencia. También le notificaremos por escrito cualquier cambio al Cargo por Financiamiento, Tasa Periódica, Tasa
de Porcentaje Anual u otros cargos aplicables.
a)

Si Usted no estuviera de acuerdo con la enmienda o cambio notificado, vendrá obligado a hacer lo siguiente durante el plazo del siguiente
período de facturación:

Página 4 de 7

ScotiaLine Gold – Sin garantía
Contrato Rev. 9-19

i)

notificarnos por escrito que cancela este contrato, antes de la fecha en la que dichos cambios sean efectivos a la dirección provista en el
párrafo 29)b), y

ii)

devolvernos todos los Cheques y Tarjetas partidas por la mitad.

Usted podrá seguir pagando el balance adeudado conforme a los términos de este contrato, pero ni Usted ni ninguna Persona Autorizada
podrá hacer cargos adicionales a su cuenta ScotiaLine Gold.
b)

El uso de cualquier servicio de ScotiaLine Gold por Usted o una Persona Autorizada durante el plazo del siguiente período de facturación
confirmará su aceptación de dicha enmienda o cargo.

29) En caso de errores o reclamaciones relacionados con su estado de cuenta:
¿Qué hacer si Usted entiende existe un error en su Estado de Cuenta?
En caso de errores o reclamaciones relacionados a su estado de cuenta nos puede llamar al 787-766-4999 ó 1-877-766-4999 o escribir a:
Scotiabank de Puerto Rico
PO Box 362230
San Juan, PR 00936-2230
Puede también contactarnos a través de nuestra página electrónica: www.scotiabankpr.com
Deberá presentar su reclamación por escrito. Su reclamación debe incluir:
• Información sobre cuenta: Su nombre y número de cuenta
• Cantidad reclamada: La cantidad en dólares del alegado error
• Descripción del alegado error: una descripción del aparente error y explicación de por qué usted considera que existe un error.
El Banco deberá recibir su reclamación dentro de los sesenta (60) días siguientes a la fecha del envío del primer Estado de Cuenta donde aparece el
alegado error.
Usted deberá notificarnos de cualquier error potencial por escrito [o electrónicamente]. Nos puede llamar por teléfono pero si lo hace no estamos
obligados a investigar cualquier error potencial y usted pudiera tener que pagar el alegado error en cuestión.
Durante la investigación, el Banco no tomará ninguna acción para:
a)
b)
c)
d)

Cobrar la cantidad reclamada o informar dicha cantidad reclamada como atrasada.
La cantidad reclamada pudiera mantenerse en su estado de cuenta, y nosotros pudiéramos continuar cargando intereses a esa cantidad. Pero,
si nosotros determinamos que hubo un error, usted no tendrá que pagar la cantidad reclamada o intereses o cargos relacionados.
Aunque no tiene que pagar la cantidad reclamada, usted es responsable de pagar aquella parte de su Estado de Cuenta que no está incluida
en su reclamación.
Nosotros podemos aplicar cualquier cantidad sin pagar contra su línea de crédito.

Sus Derechos en caso de no estar satisfecho con una compra con su Tarjeta de Crédito.
De tener usted problemas con la calidad de la mercancía o servicios comprados con su Tarjeta de Crédito, y de haber usted tratado de buena fe de
corregir el problema con el vendedor, usted pudiera tener el derecho de no pagar por el remanente de la deuda relacionada con esta mercancía o
servicios.
Para poder ejercer este derecho, las siguientes cláusulas deben ser verdaderas:
a) Usted debe haber realizado la compra en el estado donde reside, o a 100 millas de su dirección postal actual, y el precio de la compra debe
ser mayor de $50. (Nota: Ninguna de estas restricciones aplicarán si el comercio donde usted adquirió la mercancía o servicios es propiedad o
es controlado por el Banco, o si la compra se baso en un anuncio o propaganda de la mercancía o servicios enviado por el Banco.)
b) Tiene que haber utilizado la Tarjeta de Crédito para la mercancía o servicios. No cualifican compras efectuadas con adelantos de efectivo de
un Cajero Automático o un cheque de su Tarjeta de Crédito.
c) No puede haber pagado por completo la mercancía o servicios.
Si todos los criterios mencionados arriba se cumplen y usted todavía no esta satisfecho con la mercancía o servicios, nos puede contactar por
escrito a:
Scotiabank de Puerto Rico
PO Box 362230
San Juan, PR 00936-2230
Página 5 de 7

ScotiaLine Gold – Sin garantía
Contrato Rev. 9-19

Puede también contactarnos a través de nuestra página electrónica: www.scotiabankpr.com
Mientras completamos la investigación, aplicarán las mismas reglas detalladas anteriormente. Si usted debe una cantidad no reclamada y no paga,
nosotros podemos reportarlo atrasado.

29) Disposiciones misceláneas
a)

Referencias de crédito. Usted nos autoriza a investigar sus referencias de crédito. Nos reservamos el derecho de expedir o no expedir Cheques
y Tarjetas, de renovar o no renovar Tarjetas, y de continuar o cancelar este contrato de acuerdo con nuestro mejor juicio crediticio.

b)

Notificaciones. Le enviaremos por correo toda comunicación a la dirección más reciente que Usted nos provea y que obre en nuestros
archivos. Usted deberá informarnos por escrito cualquier cambio en su dirección postal. Usted debe remitir toda correspondencia dirigida a
Nosotros a la siguiente dirección: Scotiabank de Puerto Rico, PO Box 362230, San Juan, PR 00936-2230. Puede también contactarnos a través
de nuestra página electrónica: www.scotiabankpr.com

c)

No renuncia a derechos. Nuestra omisión de ejercitar cualquier derecho bajo este contrato o bajo la ley aplicable no constituirá una renuncia a
dicho derecho.

d)

Cláusulas nulas. El que alguna cláusula de este contrato, o parte de ella, fuese declarada nula por un tribunal o agencia gubernamental, o
dejase de tener efecto por disposición legal o reglamentaria, no afectará a las restantes disposiciones de este contrato, las cuales continuarán
vigentes.

e)

Todos los acuerdos. Este contrato y la Divulgación de Cargos y Cuotas contienen la totalidad de los acuerdos entre Usted y Nosotros en lo que
respecta a su cuenta ScotiaLine Gold.

f)

Ley aplicable. Este contrato se interpretará a tenor con las leyes del Estado Libre Asociado de Puerto Rico y de los Estados Unidos de América.

Acepto los términos y condiciones de este Contrato.

Número de Cuenta:

Tasa de Porcentaje Anual (APR) Inicial:

Límite de Crédito:

Tasa Periódica Diaria Inicial:

Nombre Solicitante:

Firma Solicitante:

Nombre Co-solicitante

Firma Co-solicitante:

Descripción Colateral (si
aplica)

Fecha:

9.00%
0.02466%

® Marca de The Bank of Nova Scotia, utilizada bajo licencia. Miembro FDIC. OCIF Lic. 22.
®MasterCard es una marca registrada de MasterCard International Incorporated.

Página 6 de 7

ScotiaLine Gold – Sin garantía
Contrato Rev. 9-19

Divulgación de Cargos y Cuotas Línea de Crédito ScotiaLine Gold
Tasas de Interés y Cargos
Línea de Crédito
Tasa de Porcentaje Anual (APR) para
Compras, Adelantos de Efectivo y
Transferencias de Balances

Información Sobre la Tasa de
Porcentaje Anual

ScotiaLine Gold sin garantía

Prime Rate + 4.00%
La tasa de porcentaje anual (APR) es variable y se calcula utilizando un índice, conocido como Prime Rate, más un
margen. El índice es la tasa base para préstamos comerciales anunciada por no menos del 75% de los 30 bancos
más grandes en los Estados Unidos, según publicada en el periódico The Wall Street Journal. A este “Prime Rate”
añadiremos un margen de 4.00%, con un APR mínimo de 8.00% y máximo de 19.00% para ScotiaLine Gold sin
garantía. Aquellos clientes que al momento de solicitar sean identificados como miembros activo de las fuerzas
armadas o dependiente cubierto, según establecido por la Ley de Préstamos a Militares (MLA), tendrán una tasa de
porcentaje anual (APR) especial de 6.00%. La misma será vigente mientras dure en el servició activo. Una vez su
periodo de activación culmine se aplicará la taza de porcentaje anual (APR) prevaleciente.

1.99% Tasa Introductoria (APR)

Tasa de Porcentaje Anual (APR)
Introductoria para Transferencia de
Balances

Cobro de Intereses
Para Consejos sobre Tarjetas de
Crédito de la Oficina para la
Protección Financiera del Consumidor
Cuotas
o Cuota Anual
o Por Cada Tarjeta Adicional
o Clientes en servicio Militar Activo
según MLA
Cargos por Transferencias de Balances
y Adelantos de Efectivo
Cargo por Cambio de Moneda
Cargo por Pago Devuelto
Cargo por Pago Tardío
Cargo por Suspensión de Pago

Solo para cuentas nuevas
La tasa de interés introductoria (APR) estará disponible desde el 1 de junio de 2019 al 31 de octubre de 2019. Esta
tasa especial estará en efecto por un periodo de seis meses a partir de la fecha de la transacción. Luego de esta
fecha, se aplicará la tasa interés correspondiente según descrita previamente para compras, Adelantos de Efectivo
y Transferencias de Balance. Para que se aplique el APR introductorio, la transacción debe realizarse en una
sucursal de Scotiabank de Puerto Rico.
La fecha de vencimiento del pago es de al menos 25 días después de la fecha de cierre del periodo de facturación.
Los cargos por financiamiento para compras, adelantos de efectivo y transferencias de balances se calcularán desde
la fecha en la cual la transacción es cargada a la cuenta hasta que se pague en su totalidad.
Para conocer más sobre los factores a considerar al momento de solicitar o utilizar una tarjeta de crédito, visite
http://www.consumerfinance.gov/learnmore/.

$75 (after 1st year)
$0
$0
No Aplica
1% de la cantidad de la transacción en USD por cada transacción efectuada en moneda extranjera,
adicional a cualquier otro cargo aplicable.
$10
Hasta $30
$15

Método para Calcular el Balance: Utilizamos el Método de Balance Promedio Diario, incluyendo compras y transacciones nuevas. Vea los términos

en el contrato para más detalles.

Derechos de reclamos en su facturación: Información relacionada con sus derechos de facturación y resolución de errores y sobre cómo ejercer los
mismos está incluida en los términos en el contrato.
Para más información, comuníquese con nuestro Centro de Contacto al 787-766-4999 ó 1-877-766-4999. También nos puedes escribir al PO Box
362230, San Juan Puerto Rico 00936-2230.

Nombre del Solicitante: ___________________________________________________
Firma del Solicitante: _____________________________________________________ Fecha: ___________________
Nombre del Co-solicitante: ________________________________________________
Firma del Co-solicitante: __________________________________________________ Fecha: ___________________
® Marca de The Bank of Nova Scotia, utilizada bajo licencia. Miembro FDIC. OCIF Lic. 22.
®MasterCard es una marca registrada de MasterCard International Incorporated.
Página 7 de 7
ScotiaLine Gold – Sin garantía
Contrato Rev. 9-19

